<html>
<title> - EXAMINING THE FEDERAL PROTECTIVE SERVICE: ARE FEDERAL FACILITIES SECURE?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





   EXAMINING THE FEDERAL PROTECTIVE SERVICE: ARE FEDERAL FACILITIES 
                                SECURE?

=======================================================================

                                (113-71)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 21, 2014

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
                                     ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

87-963 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001    
        
        
        
        
        
        
        
        
        
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,          Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDREE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
MARK SANFORD, South Carolina
DAVID W. JOLLY, Florida
                                ------                                

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

                  LOU BARLETTA, Pennsylvania, Chairman
THOMAS E. PETRI, Wisconsin           ANDREE CARSON, Indiana
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, District of 
ERIC A. ``RICK'' CRAWFORD, Arkansas      Columbia
BLAKE FARENTHOLD, Texas, Vice Chair  MICHAEL H. MICHAUD, Maine
MARKWAYNE MULLIN, Oklahoma           TIMOTHY J. WALZ, Minnesota
MARK MEADOWS, North Carolina         DONNA F. EDWARDS, Maryland
SCOTT PERRY, Pennsylvania            RICHARD M. NOLAN, Minnesota
MARK SANFORD, South Carolina         DINA TITUS, Nevada
BILL SHUSTER, Pennsylvania (Ex       NICK J. RAHALL, II, West Virginia
    Officio)                           (Ex Officio)
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY
                                Panel 1

Mark L. Goldstein, director, Physical Infrastructure Team, U.S. 
  Government Accountability Office...............................     3
Leonard E. Patterson, director, Federal Protective Service, 
  National Protection and Programs Directorate, U.S. Department 
  of Homeland Security...........................................     3

                                Panel 2

David L. Wright, president, AFGE Local 918.......................    23
Stephen Amitay, Esq., executive director and general counsel, 
  National Association of Security Companies.....................    23

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Mark L. Goldstein................................................    33
Leonard E. Patterson.............................................    51
David L. Wright..................................................    57
Stephen Amitay, Esq..............................................    69

                       SUBMISSIONS FOR THE RECORD

David L. Wright, president, AFGE Local 918, correction to written 
  testimony......................................................    81

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
   EXAMINING THE FEDERAL PROTECTIVE SERVICE: ARE FEDERAL FACILITIES 
                                SECURE?

                              ----------                              


                        WEDNESDAY, MAY 21, 2014

                  House of Representatives,
       Subcommittee on Economic Development, Public
               Buildings, and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:06 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Lou Barletta 
(Chairman of the subcommittee) presiding.
    Mr. Barletta. The committee will come to order.
    Today we are examining the Federal Protective Service and 
the security of our Federal buildings and facilities. FPS, with 
1,300 personnel, including law enforcement officers and nearly 
14,000 contract guards, is charged with protecting over 9,000 
Federal buildings and facilities across the Nation owned or 
leased by the General Services Administration. While FPS is not 
responsible for all Federal facilities, its role is central to 
protecting Federal workers and visitors to Federal buildings 
nationwide.
    Since the 9/11 terrorist attacks, our country has taken 
steps to prevent and be better prepared for terrorism and other 
threats, and unfortunately public buildings are proven targets. 
Whether because of their symbolism or because of the number of 
Federal employees and visitors that use these facilities, the 
threat to Federal buildings has a long history. In 1995, 
Timothy McVeigh and his coconspirators used a truck filled with 
homemade explosives to bomb the Alfred P. Murrah Federal 
Building in downtown Oklahoma City, killing 168 people, 
including 19 children. In 2010, Andrew Stack targeted a 
building in Austin, Texas, housing 200 IRS employees by 
crashing a small plane into the building. Active shooter 
incidents have been an ongoing threat as well, including 
shootings at the Navy Yard here in Washington, DC, Fort Hood in 
Texas, the U.S. Capitol Building, and the United States 
Holocaust Museum.
    Because of these clear threats and the steps taken since 
the Oklahoma City bombing, we should, nearly 20 years later, 
have significantly improved the security of public buildings. 
Unfortunately problems persist. Over the past 5 years, the 
Government Accountability Office, or GAO, and others continue 
to identify very real deficiencies. Penetration testing done by 
the GAO and FPS has revealed fake bomb components, knives, and 
guns have been secreted past security. The oversight of 
contract guards and their training needs improvement; and, 
while the guards are armed, they lack training and clear 
direction on active shooter situations. Partnerships with local 
law enforcement agencies are patchy, raising questions as to 
whether State and local law enforcement agencies are clear on 
their authority to respond to incidents on Federal property. 
The facility risk assessments conducted on Federal buildings to 
help identify their risks and needed security measures are 
behind schedule and sometimes ignored by customer agencies.
    And on top of all this, confidence in FPS may be eroding. 
Just this month DHS has taken steps to remove FPS from 
overseeing security at its Nebraska Avenue Complex. But we 
should also put all of this into context. The reality is, 
building security is difficult. If it were not, these problems 
would have easily been resolved years ago. We have seen that 
even with the best security, there is still a risk a terrorist 
could be successful. And there have been improvements, 
including FPS's revamping of its risk assessments, improved 
partnerships with local law enforcement, particularly here in 
the Nation's capital, and a strengthened working relationship 
with GSA.
    Today, I hope this can be a productive hearing. We need to 
understand the challenges and problems, but we also want to 
hear solutions. Ultimately, whether it is the members of the 
public or Federal workers, those who come to Federal buildings 
must have confidence we are doing all we can to protect them. I 
look forward to hearing from our witnesses today, and I thank 
you all for being here.
    I now call on the ranking member of the subcommittee, Mr. 
Carson, for a brief opening statement.
    Mr. Carson. Thank you, Chairman Barletta.
    I want to thank Chairman Barletta for holding today's 
hearing. I also want to welcome today's witnesses to the 
subcommittee hearing on the Federal Protective Service.
    As a former law enforcement officer with over a decade of 
experience, I have a strong interest in examining FPS and 
ensuring that it is functioning at the highest possible level. 
That said, I find the issues facing FPS deeply troubling. FPS 
is responsible, as we all know, for protecting Federal 
employees and visitors in approximately 9,600 Federal 
facilities across this Nation. Yet the Department of Homeland 
Security inspector general and the GAO have issued at least six 
reports since 2009 detailing serious challenges that FPS has 
been having in meeting this expectation.
    The shortcomings detailed in these reports are troubling. 
They effectively highlight that FPS relies on a private 
contract guard force of over 15,000 guards to provide security 
to Federal facilities under the control of the GSA. The GAO has 
consistently noted that FPS lacks effective management controls 
and systems to ensure its contract guards have met their 
training and certification requirements, which are necessary to 
ensure a baseline of security in these buildings. In addition, 
it is unclear whether many of these contract guards have been 
trained on how to respond to active shooter incidents or use x-
ray and magnetometer equipment. These contract guards are often 
the first line of defense for our Federal buildings and the 
people inside, and we must have assurances that they are 
prepared to offer the highest level of protection.
    More broadly, GAO has reported that FPS has limited ability 
to manage risk across Federal facilities and implement security 
countermeasures. FPS lacks a comprehensive strategic approach 
to providing security to the buildings in GSA's inventory. 
These problems are worsened by an inability to ensure it has a 
sufficient amount of law enforcement officers and inspectors 
necessary to conduct regular security assessments. It is also 
uncertain whether the current fee structure is sufficient to 
fund this strong law enforcement presence.
    Now, we have to be very mindful that Federal facilities, 
where Federal employees work, particularly the Pentagon, the 
Navy Yard, and Oklahoma City Federal buildings, have been the 
sites of major attacks. Federal facilities are symbols of our 
Government that terrorists want to take down. But terrorism is 
not the only threat. We must stay vigilant to protect Federal 
employees and our constituents who visit these buildings on a 
daily basis. Congress cannot afford to wait for an attack 
button to push on FPS reform.
    We are holding this hearing today to help us learn from our 
stakeholders and our leaders how to better protect millions of 
Federal workers and visitors to these facilities. I thank the 
witnesses, and I thank the chairman. I yield back.
    Mr. Barletta. Thank you, Ranking Member Carson.
    We will have two panels today. On our first panel we have 
Mr. Mark L. Goldstein, director, Physical Infrastructure Team, 
U.S. Government Accountability Office; and Mr. L. Eric 
Patterson, drector, Federal Protective Service, Department of 
Homeland Security.
    I ask unanimous consent that our witnesses' full statements 
be included in the record. Without objection, so ordered. Since 
your written testimony has been made a part of the record, the 
subcommittee would request that you limit your oral testimony 
to 5 minutes.
    Mr. Goldstein, you may proceed.

      TESTIMONY OF MARK L. GOLDSTEIN, DIRECTOR, PHYSICAL 
INFRASTRUCTURE TEAM, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; AND 
  LEONARD E. PATTERSON, DIRECTOR, FEDERAL PROTECTIVE SERVICE, 
 NATIONAL PROTECTION AND PROGRAMS DIRECTORATE, U.S. DEPARTMENT 
                      OF HOMELAND SECURITY

    Mr. Goldstein. Thank you, Mr. Chairman and members of the 
subcommittee. Thank you for the opportunity to be here today 
and discuss the Federal Protective Service. Recent incidents at 
Federal facilities demonstrate their continued vulnerability to 
attacks and other acts of violence. As part of DHS, FPS is 
responsible for protecting Federal employees and visitors in 
approximately 9,600 Federal facilities. To help accomplish its 
mission, FPS conducts facility security assessments and has 
approximately 13,500 contract security guards deployed to 
Federal facilities. FPS charges fees for its security services 
to Federal tenants' agencies.
    My testimony discusses challenges FPS faces in, number one, 
ensuring contract security guards deployed to Federal 
facilities are properly trained and certified; and, number two, 
conducting risk assessments at Federal facilities. It is based 
on GAO reports issued from 2009 to 2014.
    As part of our work, we found that the Federal Protective 
Service continues to face challenges ensuring that contract 
guards have been properly trained and certified before being 
deployed to Federal facilities around the country. In September 
2013, for example, GAO reported that providing training for 
active shooter scenarios and screening access to Federal 
facilities poses a challenge to FPS. According to officials at 
five guard companies, their contract guards had not received 
training in how to respond during incidents involving an active 
shooter. Without ensuring that all guards receive training in 
how to respond to active shooter incidents, FPS has limited 
assurance that its guards are prepared for this threat.
    Similarly, an official from one of FPS's contract guard 
companies stated that 133 guards, about 38 percent of its 350 
guards on 3 different contracts, had never received screener 
training. As a result, guards deployed to Federal facilities 
may be using x-ray and magnetometer equipment that they are not 
qualified to use, raising questions about their ability to 
fulfill a primary responsibility of screening access at control 
points at Federal facilities. GAO was unable to determine the 
extent to which FPS's guards have received active shooter 
response and screener training, in part because FPS lacks a 
comprehensive and reliable system for guard oversight.
    GAO also found that FPS continues to lack effective 
management controls to ensure its guards have met its training 
and certification requirements. For instance, although FPS 
agreed with GAO's 2012 recommendations that it develop a 
comprehensive and reliable system for managing information on 
guards' training, certifications, and qualifications, it still 
does not have such a system. Additionally, 23 percent of the 
276 contract guard files GAO reviewed did not have required 
training and certification documentation. For example, some 
files were missing items such as documentation of screener 
training, CPR certifications, and firearms qualifications.
    Additionally, we also found that assessing risk at Federal 
facilities remains a challenge for FPS. GAO found in 2012 that 
Federal agencies pay FPS millions of dollars to assess risks at 
their facilities, but FPS is not assessing risks in a manner 
consistent with Federal standards. In March 2014, GAO found 
that this is still a challenge for FPS and several other 
agencies. The Interagency Security Committee's Risk Management 
Process for Federal Facilities standard requires Federal 
agencies to develop risk assessment methodologies that, among 
other things, assess the threat, vulnerability, and consequence 
to undesirable events.
    Risk assessments help decisionmakers identify and evaluate 
security risks and implement protective measures. Instead of 
conducting risk assessments, FPS uses an interim vulnerability 
assessment tool referred to as the Modified Infrastructure 
Survey Tool, or MIST, to assess Federal facilities until it 
develops a longer term solution. However, MIST does not assess 
consequence, the level, duration, and nature of potential loss 
resulting from an undesirable event. Three of the four risk 
assessment experts GAO spoke to agreed that a tool that does 
not estimate consequence does not allow agencies to fully 
assess risks. The FPS has limited knowledge of the risks facing 
about 9,600 Federal facilities around the country as a result. 
FPS officials stated that consequence information in MIST was 
not part of the original design of the system, but they are 
exploring ways to incorporate it.
    Finally, I would note that since fiscal year 2010, GAO has 
made 31 recommendations to improve FPS's contract guard and 
risk assessment processes, of which 6 have been implemented, 10 
are in process, and 15 have not been implemented.
    Mr. Chairman, this concludes my oral statement. I would be 
happy to respond to questions that you or members of the 
subcommittee have. Thank you very much.
    Mr. Barletta. Thank you for your testimony, Mr. Goldstein.
    Mr. Patterson, you may proceed.
    Mr. Patterson. Thank you, Chairman Barletta, Ranking Member 
Carson, and distinguished members of the committee. My name is 
Eric Patterson, and I am the director of the Federal Protective 
Service within the National Protection and Programs Directorate 
of the Department of Homeland Security. I am honored to testify 
before the committee today regarding the mission and operations 
of the Federal Protective Service.
    FPS is charged with protecting and delivering integrated 
law enforcement and security services to more than 9,000 
facilities owned or leased by the General Services 
Administration and safeguarding more than 1.4 million daily 
occupants and visitors. In performing this mission, FPS 
directly employs more than 1,000 sworn Federal law enforcement 
officers to provide uniformed police response at FPS-protected 
facilities, participate in joint tactical exercises with 
various Federal, State, local, and tribal law enforcement 
personnel, and conduct facility security assessment of FPS-
protected facilities nationwide.
    Utilizing the Modified Infrastructure Survey Tool, or MIST, 
our inspectors document the existing protective posture at a 
facility, compare how a facility is or is not meeting the 
baseline of protection for its facility security level, and 
provide recommendations to tenant facility security committees 
regarding appropriate countermeasures to mitigate the risk. FPS 
designed its FSA process to meet the requirements of the 
Interagency Security Committee's--ISC--Risk Management Process 
for Federal Facilities, and FPS is in the process of submitting 
the FSA process, including the MIST tool, to the ISC for 
validation.
    Utilizing this tool, FPS is on track to have completed 
assessments at all FSL Level III through V facilities in the 
FPS portfolio by the end of calendar year 2014. I am also 
pleased to report that the second generation tool, MIST 2.0, is 
currently in systems acceptance testings. This system will 
feature, among other improvements, an enhanced user interface 
and improved visibility and protection measures across the FPS 
portfolio. At this time we expect deployment of this system to 
begin in the fall of 2014.
    FPS inspectors also oversee guard posts staffed by 
approximately 13,000 FPS-contracted Protective Security 
Officers. PSOs are responsible for controlling access to 
Federal facilities, detecting and reporting criminal acts, and 
responding to emergency situations. PSOs also ensure prohibited 
items, such as firearms, explosives, knives, and drugs, do not 
enter Federal facilities.
    All PSOs must undergo background investigation checks to 
determine their fitness to begin work on behalf of the 
Government and are rigorously trained. However, it is important 
to note that PSOs are not sworn law enforcement officers. 
Rather, PSOs are employees of private security companies, and 
FPS does not have the authority to deputize PSOs in a law 
enforcement capability. An individual PSO's authority to 
perform protective services is based on State-specific laws 
where the PSO is employed.
    FPS partners with private sector guard companies to ensure 
that the guards have met the certification, training, and 
qualification requirements specified in the contracts. 
Additionally, FPS is working closely with the National 
Association of Security Companies--NASCO--to develop a national 
lesson plan that will establish a basic and national training 
program for all PSOs to ensure standards are consistent across 
the Nation. These efforts will further standardize training 
PSOs receive and will provide for great capability to validate 
training and facilitate rapid adjustments to training to 
account for changes in threat and technological advancements.
    To ensure high performance of our contract PSO workforce, 
FPS law enforcement personnel conduct PSO post inspections and 
integrated covert test activities to monitor vendor compliance 
and countermeasure effectiveness. Additionally, vendor 
personnel files are audited periodically to validate that PSO 
certifications and training records reflect compliance and 
contract requirements.
    To supplement this current audit process, FPS has partnered 
with the DHS Science and Technology Directorate to develop a 
prototype Post Tracking System. This system will be capable of 
authenticating an individual PSO's identity and tracking PSO 
time on position and training and certification records in real 
time. We expect the first iteration of this system to begin 
tests within 12 months.
    We continuously strive to further enhance, integrate, and 
transform our organization to meet the challenges of an 
evolving threat landscape and are committed to closing out 
outstanding Government Accountability Office recommendations 
pertaining to FPS operations. To facilitate the closure of open 
GAO recommendations, FPS has implemented a program management 
approach. Utilizing this process, FPS has closed two open GAO 
recommendations this year and expects to submit documentation 
for closure of eight additional GAO recommendations by the end 
of June 2014. In total, FPS hopes to close 10 to 15 of the 31 
open GAO recommendations before the end of this fiscal year.
    In closing, I would like to acknowledge and thank the 
distinguished members of this committee for the opportunity to 
testify today. The Federal Protective Service remains committed 
to its mission of providing safety, security, and a sense of 
well-being to thousands of visitors and Federal employees who 
work and conduct business in our facilities daily. I would be 
pleased to answer any questions you may have. Thank you.
    Mr. Barletta. Thank you for your testimony, Mr. Patterson.
    I will now begin the first round of questions, limited to 5 
minutes for each Member. If there are additional questions 
following the first round, we will have additional rounds of 
questions as needed.
    The Federal Protection Service is directly responsible for 
protecting Federal buildings and the 1.4 million workers and 
visitors to those facilities. The Public Buildings Act, crafted 
by this committee, gave FPS law enforcement authority for that 
very purpose, to protect buildings and the people in them. Yet 
after moving from GSA to DHS in 2003, there has been GAO report 
after report detailing serious security deficiencies at Federal 
facilities. Given the importance of this mission, one would 
expect the Department of Homeland Security to make Federal 
building security a top priority.
    Yet these problems continue. Just recently we received a 
copy of a May 1 memo from the DHS Chief Security Officer to the 
DHS Under Secretary for Management that removed the Federal 
Protection Service from its lead role of providing security at 
the Homeland Security headquarters complex on Nebraska Avenue.
    My first question, Mr. Patterson, is why was the Federal 
Protection Service removed as the lead security provider at the 
DHS headquarters, and does this mean that DHS has lost 
confidence in FPS?
    Mr. Patterson. To answer your question, sir, to my 
knowledge, this was not an issue of performance. I do not 
believe that the Department has lost confidence in the Federal 
Protective Service. I believe this was an issue of efficiency 
and unity of command that is supporting the Secretary's vision, 
and, in effect, FPS will continue to provide security, which 
will include law enforcement and canine support. We will 
continue to do assessments, and we will have a robust presence 
at the facility as we always have. Currently this is about 
contract management and not about losing confidence in our 
ability to provide security and law enforcement support.
    FPS supports 2,100 DHS facilities across the Nation, to 
include ICE headquarters, FEMA headquarters, CBP headquarters, 
Secret Service headquarters, TSA, and the U.S. Coast Guard 
headquarters. And we do a very good job there, we have a robust 
presence there, and I am sure we will continue to provide the 
same level of support to the NAC. We are proactive partners 
with the Office of Security in ensuring a safe and secure 
environment at the NAC.
    Mr. Barletta. What were the problems at the Department of 
Homeland Security headquarters that caused the Chief Security 
Officer to take this action, and are there similar problems at 
the other 9,600 Federal buildings FPS provides security for? 
And finally, could you explain why FPS security is inadequate 
for DHS but good enough for the other agencies?
    Mr. Patterson. Yes, sir. I don't think this is an 
indictment of FPS security. I think, again, this is a matter of 
efficiency in managing a contract. We are going to continue to 
provide security at the NAC. That is not the issue. The Office 
of Security, I believe is looking to fulfill the Secretary's 
vision to streamline and better conduct business at the NAC.
    Mr. Barletta. Today, who is in charge of security at DHS 
headquarters? And if there were an active shooter incident 
right now, who would be the incident commander on scene, and 
will the first responders know who is in charge? What would be 
the role of FPS in that situation?
    Mr. Patterson. Yes, sir. In that situation the Office of 
Security and the Federal Protective Service share a 
partnership. So it could be either the Office of Security or it 
could be the Federal Protective Service. It depends on who is 
first on scene. That is who is going to assume incident command 
of the situation, and then it will evolve from there. At that 
point, we will look to bring in the Metropolitan Police 
Department and other support to help us in resolving that 
situation.
    Mr. Barletta. Mr. Goldstein, what percentage of security 
guards have active shooter training? What percentage have 
security screener training? And if security guards do not have 
proper training, how would you expect them to be able to keep 
weapons and bombs out of a Federal building or respond to an 
active shooter?
    Mr. Goldstein. Mr. Chairman, our study was not 
generalizable, so I can't say for sure how many actually do 
have that kind of screening today. However, what we found in 
talking to several different guard companies around the country 
was that there are still pockets of guards that do not. Several 
years ago, we found that there were 1,500 guards in several 
regions that did not have screener training. For the companies 
we looked at now, there were still several hundred that do not, 
and we would expect that there would be others, although, as I 
say, it is not generalizable.
    However, because of this problem persisting and the lack of 
training that is required being actually provided, we do have 
concerns that remain and that have remained for a number of 
years now, as you know, about the ability and possibility of 
bombs and other kinds of weapons getting into Federal 
facilities because there is no assurance that the person 
standing guard and responsible for putting things through a 
magnetometer and an x-ray machine has the adequate training to 
prevent something from coming through that shouldn't come 
through.
    Mr. Barletta. Thank you.
    The Chair now recognizes Ranking Member Carson for 
questions.
    Mr. Carson. Thank you. Thank you, Chairman.
    Director Patterson, how often does the FPS fine and 
penalize contract guard companies for posting guards that do 
not have the proper certification or incomplete training?
    Mr. Patterson. I don't have that statistic readily 
available for you, sir, but I can provide that to you.
    Mr. Carson. Yes, sir.
    Mr. Patterson. That would be resident with our contracting 
office.
    Mr. Carson. Yes, sir.
    Director Patterson, based on the status quo, sir, how would 
you expect contract guards to react to a Navy Yard type 
shooting at a GSA-controlled facility?
    Mr. Patterson. Yes, sir. We are working aggressively with 
the National Association of Security Companies, NASCO, and 
looking at, given the current laws, how we can work with the 
security guard company to respond. We have just produced some 
guidance to provide each one of the security guards 2 hours of 
active shooter training. But what that really does is makes 
them aware of what an active shooter event is. And that 
individual will have the discretion, given the circumstances, 
to actively pursue, depending upon, again, what the 
circumstances are. Because each one of these companies is still 
under the oversight of their State law.
    So we are kind of caught between a rock and a hard place 
right now. We would like to be able to train them to a standard 
to where we can give them active shooter training and move them 
to a position to where there is no question. But right now, 
because we don't have that authority, it creates a little bit 
of a dilemma.
    Mr. Carson. Thank you, Director.
    Mr. Goldstein, in your testimony, sir, you discussed the 
fact that FPS is using MIST, a vulnerability assessment tool 
that does not take into account the consequences of an 
undesirable attack or an event. What is the impact of assessing 
the consequences of a terrorist attack or serious crime 
activities at a Federal facility?
    Mr. Goldstein. The ISC standard requires that agencies look 
at threat, vulnerability, consequence, and a list of a number 
of undesirable events. And then for each of those undesirable 
events they are required to determine whether there is a 
threat, vulnerability, and consequence component for each 
event.
    In our work we have found that assessing consequence is 
important because it helps to determine how best to protect a 
facility, because we are talking obviously about limited 
resources and we are talking about trying to protect, in this 
case, some 9,600 facilities. But because of the way in which 
the Federal Government and FPS actually look at each building, 
it is kind of a cookie-cutter approach.
    And there is no, and I have said this a number of times 
here and elsewhere before this committee, there is no way that 
FPS is able to examine threat, vulnerability, and consequence 
across its portfolio to allocate resources across facilities. 
It looks at each facility in a stovepipe kind of way and 
therefore it becomes quite difficult to better provide 
resources, which are as we all know quite limited, to FPS.
    Mr. Carson. Mr. Goldstein, what is the value in FPS 
individual facility security assessments currently, and are 
these assessments thorough enough to properly assess the threat 
to Federal employees and visitors to Federal buildings? And how 
could current assessments even be improved for that matter?
    Mr. Goldstein. It is our understanding that since MIST has 
been in place, which is about 18 months or so, that FPS has 
once again begun to do assessments, that they have done around 
1,200, based on the information we have. But they had a backlog 
when they started MIST of about 5,000, so that is still a 
pretty considerable number that hadn't been done just from the 
past. And at Level III and Level IV buildings they are expected 
to be done roughly every 3 years.
    So there is quite a lot of backlog that remains, as well as 
pent-up demand for new ones. And when we have gone in and 
looked as well, about 9 or 10 percent of them, hundreds of 
them, thousands of them really, didn't even have a date 
associated with them of when the last assessment was conducted. 
So it is hard to know just how long it has been since many 
major Federal buildings have actually had a risk assessment to 
start with.
    We also know that in the last couple years that a number of 
other Federal agencies have done their own assessments, even 
while they are paying FPS to do a separate assessment. So there 
is a lot of duplication. And the IRS and the EPA and many other 
agencies have done their own assessments for a whole variety of 
reasons, including that some didn't like the standard to which 
it was being done, some didn't like what was being shared with 
them. And so there has been a variety of reasons for that as 
well. So there has been a lot of duplication also.
    We do believe that FPS has to do a better job, and 
hopefully MIST 2, which Director Patterson has talked about, 
will help them achieve that in being able to allow them to do 
better assessments in the future.
    Mr. Carson. Thank you, Mr. Chairman.
    Mr. Barletta. The Chair now recognizes Mr. Crawford for 5 
minutes of questioning.
    Mr. Crawford. Thank you, Mr. Chairman.
    Mr. Patterson, I think the chairman addressed this earlier, 
this memo from Greg Marshall, Chief Security Officer, regarding 
the Nebraska Avenue Complex. And if I understand it correctly, 
what you said was that it was essentially a command-and-control 
issue, it wasn't necessarily anything related otherwise. Is 
that accurate?
    Mr. Patterson. Yes, sir, to my knowledge. Yes, sir.
    Mr. Crawford. I am curious, on a facility with that level 
of security, can you describe--I am concerned about the 
proliferation of IEDs and Federal buildings being a target--can 
you describe what is the protocol, the response protocol in the 
event of an IED detection or a large-scale IED attack?
    Mr. Patterson. Well, folks who are visitors have to go 
through screening. If, at that point, there is a detection of 
an explosive device, that area is cleared. We will then call 
the Metropolitan Police Department, who will bring in their 
explosive detection team to assess whether or not it is truly 
an explosive device or not. If they assess that it is an 
explosive device, then emergency evacuation plans for that 
facility will be put into place.
    Mr. Crawford. OK. I am concerned about, and I have had some 
talks with other metro bomb squads and some of the Federal 
agencies that are also equipped or staffed with bomb techs, in 
the event of a large scale, do you have anything beyond just 
relying on metro bomb squad, or are there some other Federal 
agencies that might respond as a backup?
    Mr. Patterson. Yes, sir. Because we are in Washington, DC, 
the FBI is going to respond. The Metropolitan Police Department 
is going to respond. We are probably going to have a Park 
Service response. So there is going to be a significant 
response. The challenge is, if we are talking about an 
explosive device, we probably want to at least limit the scope 
of the response until we determine the magnitude of the threat.
    Mr. Crawford. Does FPS have any capacity, any kind of 
technical capacity to deal with an IED? And that is to say, are 
there bomb techs within the ranks of FPS?
    Mr. Patterson. No, sir, we don't have bomb techs, but we do 
have explosive ordnance dogs that we use. That is our first 
line of defense. If we suspect that there is an issue we will 
bring in the canine to give us an alert. And if they alert, 
then clearly we begin to evacuate that area, and then we call 
in the Metropolitan Police Department and others who have the 
capability to further explore what the issue is.
    Mr. Crawford. OK. And then outside of DC, I would assume 
that there is a similar protocol in place with the local 
municipalities that have the capacity to respond to an IED 
threat?
    Mr. Patterson. Absolutely, sir, yes. If an FPS dog isn't 
available, we have relationships with local law enforcement 
where we can leverage their assets as well. If we get a 
positive hit, then we call on our partners. If it is the city 
of Chicago, we call in city of Chicago. If it is a smaller 
city, then whatever arrangements have been made for response, 
then that is who we will call on.
    Mr. Crawford. Do you have any relationships with DOD 
assets? And by that, what I am getting at here is that, for 
example, the United States Army has the primary responsibility 
of providing support to law enforcement at every level within 
the continental United States. Do you have those arrangements 
in place with the DOD assets?
    Mr. Patterson. We have a relationship with them to where we 
can call them in if we need them.
    Mr. Crawford. OK. Appreciate that.
    One other thing. You said you had detection dogs?
    Mr. Patterson. Yes, sir.
    Mr. Crawford. So that means you have handlers that have 
been trained?
    Mr. Patterson. Yes, sir. We have got about 74, 75 canines 
with their handlers across the United States. We have one up at 
the Nebraska Avenue Complex for about 18 hours during the day.
    Mr. Crawford. OK.
    Mr. Goldstein, what percentage of Federal buildings has up-
to-date and complete security risk assessments?
    Mr. Goldstein. It is not possible to say, sir, at this 
point in time. As I mentioned, there is a considerable backlog 
at this point of past due assessments. Plus, the work we have 
done in the past show that because there are a number of them 
that have no date in the system at all, it is not possible to 
determine when the last one was done. FPS is working to reduce 
that backlog and to hopefully move forward with new ones so 
that they can become up to date, but they are not at that place 
today.
    Mr. Crawford. Wow, that is kind of disturbing. So why the 
backlog?
    Mr. Goldstein. The backlog occurred over a period of time 
for a couple of reasons. One, that the old system that was 
being used, called RAMP, its functionality was not sufficient, 
and they pulled the plug on the program. And so then a backlog 
began to grow.
    Additionally, I think over time, as the Federal Protective 
Service changed the nature of its workforce from a police 
officer force to an integrated force of inspectors that had a 
lot of different duties, that this particular responsibility of 
doing the assessment which fell on them and which many of them 
were not trained for took up an increasing amount of time, but 
they had other duties as well, including managing contract 
guards and the contract guard contracts and other things. And 
so they fell behind, quite frankly.
    Mr. Crawford. Is this not that part of an annual review? I 
mean, it seems to me that ought to be something done annually 
to make sure that that assessment is up to date all the time.
    Mr. Goldstein. It should be done on a Level III and Level 
IV building every 3 years, but as I mentioned, it is simply not 
occurring at this point in time.
    Mr. Crawford. All right. My time has expired. I yield back. 
Thank you, Chairman.
    Mr. Barletta. Thank you.
    The Chair now recognizes Ms. Norton for 5 minutes of 
questioning.
    Ms. Norton. Thank you very much, Mr. Chairman. I very much 
appreciate this hearing. There have been chronic problems at 
FPS. And I would like to look at the difference between FPS 
officers and a contract guard so that we understand who is 
really guarding these buildings.
    On page 2 of your testimony, you describe the law 
enforcement authority of FPS officers, specific police powers, 
including enforcing Federal laws and regulations, carrying 
firearms, et cetera. Then, of course, on page 5 of your 
testimony you distinguish these officers from the contract 
guards who--and this is very important, I think, to just lay 
right here on the record, it is in your testimony--the PSOs 
rely on private person laws, such as citizen arrest laws. So 
that means that they can do no more than I can do in a Federal 
building. I mean, isn't that technically correct?
    Mr. Patterson. Yes, ma'am. They are governed by the State 
law as to the extent of their authority.
    Ms. Norton. Were the Nebraska Avenue contract guards 
replaced by Federal Protective Service officers?
    Mr. Patterson. No, ma'am, they were not.
    Ms. Norton. What is at Nebraska Avenue now?
    Mr. Patterson. Contract Protective Security Officers.
    Ms. Norton. So what was the difference? What was the 
change?
    Mr. Patterson. I am sorry?
    Ms. Norton. What was the change at Nebraska Avenue?
    Mr. Patterson. The change was in the oversight of the 
contract. FPS had oversight of the contract. We had COR 
responsibilities--Contracting Officer Representative 
responsibilities. That is the day-to-day oversight of the 
contract.
    Ms. Norton. So FPS is supervising or in oversight over 
these guards at the Department of Homeland Security on Nebraska 
Avenue?
    Mr. Patterson. We were. That particular responsibility has 
been now moved to the Office of Security.
    Ms. Norton. And that is unique then, only at the Department 
of Homeland Security does that arrangement exist?
    Mr. Patterson. No, ma'am. Only at the Nebraska Avenue 
Complex. We still retain that responsibility at hundreds of DHS 
facilities around the country.
    Ms. Norton. I want to ask you to tell us why. I think we 
would we have to ask the Department, but I think it is pretty 
apparent why. They obviously felt they had to be made more 
secure, and they went to professional security authorities.
    Now, when FPS guards who guard all the rest of the 
buildings and the Federal employees and the visitors, if 
someone comes into one of those facilities and has a gun, with 
or without a gun, and decides not to go through the 
magnetometer, can a contract guard pursue that person?
    Mr. Patterson. Yes, ma'am, and they can be detained. At 
that point they will call the FPS MegaCenter, which will then 
dispatch either an FPS inspector or the local authorities.
    Ms. Norton. I ask that because there have been instances 
reported where contract guards stood by, not when someone had a 
gun, but when there was a disturbance, saying they could not 
leave their post.
    Mr. Patterson. Every day, ma'am, we have contract guards 
who are engaged in responding to disturbances, especially at 
Social Security offices.
    Ms. Norton. The contract guard is not pinned on the post, 
he can go anywhere in the facility where there may be a 
disturbance, he can pursue someone with a gun even though he 
does not have a gun?
    Mr. Patterson. I am not sure that I understand what your 
question is, ma'am.
    Ms. Norton. Someone comes through.
    Mr. Patterson. Right.
    Ms. Norton. And remember what you are there for is for 
surprises, not for the average person coming through. All 
right, someone comes through with a gun.
    Mr. Patterson. Yes, ma'am.
    Ms. Norton. I am trying to find out whether the contract 
guard, who has no gun, can pursue that person.
    Mr. Patterson. Well, our contract guards----
    Ms. Norton. Or what he must do.
    Mr. Patterson. Yes, ma'am. Our contract guards are armed. 
And if they see the individual----
    Ms. Norton. All of them are armed?
    Mr. Patterson. They are armed, yes, ma'am.
    Ms. Norton. Is there a central curriculum for how they are 
trained?
    Mr. Patterson. Yes, ma'am.
    Ms. Norton. Who provides that curriculum?
    Mr. Patterson. We do. We lay out the requirements for the 
training, and we are currently in the development of a national 
program for training that we are working with NASCO to deploy.
    Ms. Norton. My time is up, so I yield back for the moment.
    Mr. Barletta. Thank you.
    We will now begin our second round of questions. And I will 
open with a question to Mr. Patterson.
    Clearly FPS does not have enough Federal law enforcement 
officers to respond to all Federal buildings in a timely 
manner. You have to rely on contract guards as your first line 
of defense, yet you noted in your testimony that the authority 
of contract guards to use deadly force comes from State and 
local laws and that in most cases they do not have the 
authority to pursue subjects. In order to address the threat 
posed by active shooters, would it be helpful for FPS to have 
the authority to delegate some Federal law enforcement 
authorities to contract guards? And do other agencies have this 
ability? And how does it work in those cases?
    Mr. Patterson. Yes, sir. If we look across the spectrum of 
authorities, if you look at TSA, that is a Federalized force. 
If you look at the U.S. Marshals Service, they have the 
authority to deputize, which gives them extensive power to 
direct their workforce in just about any direction that they 
want. Then you have the Department of Energy, who has a guard 
force protecting the nuclear plants and other facilities where 
they have some limited law enforcement authorities that allow 
them to arrest and do the things that they need to be done on 
an immediate basis.
    What we would seek would be to streamline our PSO authority 
structure. What that means is that you give us an opportunity 
to increase the authority of the PSO when we need. For 
instance, during our response to Hurricane Sandy, we were being 
requested to provide extensive support to the citizens in New 
York, and to our facilities in New York. Our vendor quickly ran 
out of PSO resources to provide to that event. We then began to 
query our other vendors to see if they could help with that 
response. What we found was that we had to go through the State 
of New York approval process, which took quite a bit of time. 
If we had had the authority to just empower PSOs at the Federal 
level, we could have responded more quickly.
    So it would also help improve the PSO training, because now 
we could directly provide focused training on the areas that we 
would want them to respond in. And it would also help with FPS 
mission readiness. So, yes, sir, anything of that nature would 
be of help.
    Mr. Barletta. In some areas where FPS does not have many 
law enforcement personnel, FPS relies on State and local law 
enforcement to be the first responders to a Federal facility in 
the event of an emergency. Do these State and local law 
enforcement personnel have all of the authorities and tools 
that they need to respond to an incident at a Federal facility? 
And do you have agreements in place with the relevant State and 
local authorities to ensure that they respond accordingly?
    Mr. Patterson. From time to time, sir, we do have a 
problem. If we are responding to an impromptu demonstration, 
especially in some of our smaller cities and towns, if there is 
an impromptu demonstration or national security event, we may 
ask the local law enforcement folks to assist us.
    In some instances their response is, ``We can't respond. We 
would love to respond to you, but we don't want to be held 
liable for anything. This is a Federal event, and we don't have 
that authority.'' So if we were able to provide that authority 
and say, listen, you are now functioning or acting on behalf of 
the Federal Government, that would clearly give them some 
relief and enhance their willingness to help us.
    Mr. Barletta. There have been some concerns about FPS's 
staffing levels for some time. In fact, language carried in the 
appropriations bills have required a minimum staffing level. 
You only have 1,300 employees, but we understand that up to 40 
of those employees may have been reassigned to functions 
outside of FPS. Is that correct? And how many FPS employees 
have been assigned outside of FPS, and why?
    Mr. Patterson. Yes, sir. Well, when we left ICE and we came 
to NPPD, we lacked the infrastructure for things like human 
resources and logistics and those things. So clearly we had to 
come up with some staffing levels for that, and that is what we 
have contributed to. That is the benefit that we derive when we 
contribute these assets to NPPD. They help us in creating our 
infrastructure.
    Mr. Barletta. Mr. Goldstein, given the number of 
outstanding work items at FPS, can FPS afford to assign its 
employees to other parts of the Department?
    Mr. Goldstein. That is probably not a question I can 
directly answer because we haven't looked at where they are 
assigned and what the rationale for those assignments are. But 
it is clear that FPS still struggles with trying to get the 
basic job done that we have talked about here this morning in 
terms of risk assessments, in terms of contract guard 
oversight, and things that you have brought up, sir. So I do 
think that is something they need to look at routinely.
    Mr. Barletta. The Chair now recognizes Ranking Member 
Carson.
    Mr. Carson. Thank you very much, Chairman. Thank you.
    Mr. Goldstein, are you aware of any of the shelf technology 
that would effectively allow the FPS to digitize their 
oversight of contract guard certifications and trainings, and 
do you believe that this technology would allow FPS to improve 
their oversight of contract guards immediately?
    Mr. Goldstein. We haven't looked specifically at it, but in 
the course of our work we have been told by many people that 
there is off-the-shelf products that could readily do this job 
and that FPS does not have to reinvent the wheel.
    Mr. Carson. Director Patterson, you know, sir, Federal law 
requires that FPS have just over 1,000 law enforcement 
officers. How many law enforcement officers does FPS actually 
need to meet its mission, and has FPS prepared a report that 
indicates that based on an activity-based cost model for human 
capital, that FPS needs significantly more law enforcement 
officers, and what might that number be just generally?
    Mr. Patterson. Yes, sir, we have looked at that. And given 
the circumstances of today, when we did the assessment, it is 
about 1,300 law enforcement that would give us the proper 
leveling for the commitment that we have today. But as that 
commitment grows, absolutely that figure will change.
    Mr. Carson. Thank you. Thank you, Mr. Chairman. I yield 
back.
    Mr. Barletta. The Chair now recognizes Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    I want to pursue that 1,300 figure. How many FPS officers 
are there, and how many contract guards are there?
    Mr. Patterson. Yes, ma'am. Today we have 1,000 sworn law 
enforcement FPS officers, and the contract guard force 
fluctuates depending upon the requirements. But today there are 
about 13,000.
    Ms. Norton. Have budget cuts or the sequester had any 
effect upon contract guards or FPS officers? Have there been a 
reduction in personnel, for example, in the last 2 years?
    Mr. Patterson. No, ma'am, actually there has not been a 
reduction of the FPS staff, but the sequestration did have an 
impact on the contract guard force in that when buildings 
closed, there was no requirement for contract guards.
    Ms. Norton. But most buildings didn't close.
    Mr. Patterson. There were many buildings that did close, 
ma'am.
    Ms. Norton. For those who didn't close, were--let me ask 
you this--were FPS officers put on furloughs?
    Mr. Patterson. No, ma'am. No FPS personnel were put on 
furlough.
    Ms. Norton. And contract guards were affected when 
buildings closed, but otherwise they were on duty?
    Mr. Patterson. Yes, ma'am.
    Ms. Norton. I would like to ask you, Mr. Goldstein, about 
the supervision at committees, because you spoke about a 
cookie-cutter approach, no cross-agency or cross-cutting agency 
approach to security, but agency-by-agency security. Now, these 
agencies each have committees. Now, these committees, of 
course, consist of personnel who are no more than the people 
who work in the building, and none of them have any security 
background, training, or knowledge. Is that not the case?
    Mr. Goldstein. Yes, ma'am, that is correct.
    Ms. Norton. But they have some significant responsibility 
for security in buildings. Would you describe the role of these 
laypeople in security?
    Mr. Goldstein. Yes, ma'am. We have done some work. It is a 
couple years old now, but it takes a look at the facility 
security committees, and it explains that the individuals who 
make up those committees, as you rightly said, tend to be the 
tenants of the building. And the tenant that has the largest 
footprint in the building typically chairs that committee.
    I have gone to, and my staff has gone to a number of 
facility security committee meetings over the years, and they 
do tend to be made up of laypeople. They tend to be, for 
instance, perhaps the administrative assistant or office 
manager for a specific agency, people like that. It tends to 
be, frankly, a delegated job that many people don't really 
want.
    Ms. Norton. So what is it that they have to do with 
security?
    Mr. Goldstein. They are responsible for taking the 
information provided them by the Federal Protective Service and 
making decisions about what kinds of countermeasures they are 
going to put in place, and then going back to their home 
agencies to get the necessary funds for doing this. This is, as 
you know, a process that could take a number of years.
    Ms. Norton. And, of course, through what expertise can they 
recommend changes in security and get the funds for that?
    Mr. Goldstein. They rely on the expertise generally that is 
provided by the FPS, as well as they may call on their own 
security people from their agencies or departments to assist 
them. But the problem, as we have described it, is you have the 
security of Federal buildings essentially being decided by a 
lot of laypeople over a very long period of time when 
countermeasures may need to be put in place fairly rapidly.
    Ms. Norton. Mr. Chairman, I believe these security 
committees or agency committees are central points of 
vulnerability. Obviously when you are talking to someone who 
says he represents the head of the agency, and he says, for 
example, I will take the Department of Transportation--I know 
this only by chance. The Department of Transportation is close 
to this very Capitol. If you go to the Department of 
Transportation you have to get someone in the Department of 
Transportation to come down, even if you have a badge from the 
United States Congress. If you are a member of the public, you 
can't get into that public building at all. Of course, if you 
are a member of the public, you can come into the Capitol. You 
can use our cafeteria. The Department of Transportation has a 
beautiful new building with a new cafeteria, and we haven't 
figured out a way for the public that paid for that building to 
be able to come in if they have a kid to use the lavatory, 
can't get into that building. And that has everything to do 
with these agency committees.
    Mr. Goldstein, do you believe these committees are 
appropriate as the decisionmakers on how much security is 
needed for a specific building so that you can have vast 
differences between the Capitol and the Department of 
Transportation, for example?
    Mr. Goldstein. The Interagency Security Committee recently 
put out some standards, which is going to help to hopefully 
better professionalize these committees. But we have long had 
concerns that this kind of--I call it a three-legged stool, GSA 
has some responsibility, FPS has some responsibility, and the 
individual facility security committees have some 
responsibility--that that may not be appropriate today as a way 
to direct and oversee security of Federal property.
    Ms. Norton. This is, I think, an important issue for this 
agency to secure. Nobody is in charge if there are three 
possible people in charge. And I submit that these agency 
committees of laypeople are who are really in charge of 
security in buildings, not the FPS and not the contract guards.
    Thank you very much.
    Mr. Barletta. Thank you.
    The Chair now recognizes the former chair of the Committee 
on Transportation and Infrastructure, Mr. Mica.
    Mr. Mica. Thank you, Mr. Barletta. And thank you for 
holding this important hearing and following up and looking at 
the Federal Protective Services and making certain that our 
Federal facilities are secure, important responsibility.
    A couple of questions. First of all, Mr. Patterson, threats 
still remain, and probably one of the most devastating 
attacks--well, most devastating attacks I can recall is the 
McVeigh bombing in Oklahoma. Now that was a domestic terrorist 
act, but international terrorist act we see the use of bombs, 
the Boston bombing. We are probably overdue for another hit 
because you can get a lot of explosives and create explosive 
devices fairly easily, as we have seen.
    How often are you briefed on intelligence, and who briefs 
you? So can you tell the committee who you are getting your 
intelligence information from, and then how often are you 
meeting with those folks?
    Mr. Patterson. Yes, sir, I can. Within the Federal 
Protective Service, we are really beginning to build a very 
structured intelligence-gathering apparatus.
    Mr. Mica. No, but, again, there are agencies that do that.
    Mr. Patterson. No, I am just saying how we collect it, sir. 
What I am saying is that we have personnel assigned to the 
Joint Terrorism Task Force with the FBI.
    Mr. Mica. So you are getting most of your intelligence from 
the Joint Task Force of the FBI?
    Mr. Patterson. Oh, no, sir.
    Mr. Mica. No.
    Mr. Patterson. That is what I was going to say. We are 
getting it from a variety of resources.
    Mr. Mica. OK. Tell me who----
    Mr. Patterson. Right.
    Mr. Mica. Who----
    Mr. Patterson. I will start at the lower level at the 
fusion centers, from the States fusion centers.
    Mr. Mica. From States?
    Mr. Patterson. Yes, sir.
    Mr. Mica. OK.
    Mr. Patterson. We get them from State fusion centers.
    Mr. Mica. How often do you meet with them?
    Mr. Patterson. Well, our folks meet with them every day.
    Mr. Mica. OK. Federal?
    Mr. Patterson. Federal, from the FBI and from the Defense 
Department. From all of the Federal intelligence and analysis 
centers at the Department of Homeland Security.
    Mr. Mica. How often do they meet?
    Mr. Patterson. We talk to them every day.
    Mr. Mica. Every day.
    Mr. Patterson. Every day. Yes, sir.
    Mr. Mica. And how is that information--the bulk of your 
people are contract people, 15,000.
    How is that information delegated? Now, you don't get to 
every one of the 15,000, but someone in the chain has to be 
made aware that a certain threat, a risk, is occurring and make 
people aware of what we are looking for--who, what?
    Mr. Patterson. Yes, sir. Once we receive a threat, that 
information is then packaged in a way that we can communicate 
that.
    Because, depending upon what the threat is, it may be 
classified. And if it is classified, then we will have to 
figure out how we can get it down to our lowest level.
    Mr. Mica. Well, you have 1,000 LEOs, I guess.
    Mr. Patterson. Yes. Yes, sir.
    Mr. Mica. And are they at each location? Is it--I mean, is 
there someone at each location?
    Mr. Patterson. No, sir.
    Mr. Mica. No?
    So--but there is someone who can get the information and--
--
    Mr. Patterson. Yes, sir. We can distribute that to 
personnel electronically----
    Mr. Mica. Sure.
    Mr. Patterson [continuing]. As the----
    Mr. Mica. How often are some kind of warnings put out? 
Daily? Weekly? Monthly? Periodically?
    Mr. Patterson. It depends.
    Mr. Mica. Sporadically? OK.
    Mr. Patterson. Yes, sir. It depends.
    Mr. Mica. All right. It would be good if you could give us 
a little chain of the command, who you meet with and when, just 
for the record. I would like to see it as part of the record, 
if you could----
    Mr. Patterson. Sure.
    Mr. Mica [continuing]. And how you meet with them.
    Because I think that most of what has happened, there is--
we still have--we still are not able to connect the dots. We 
didn't connect the dots with the Boston.
    Mr. Patterson. Right.
    Mr. Mica. We haven't connected the dots at all. And it is 
usually local law enforcement and others who are----
    Mr. Patterson. Absolutely----
    Mr. Mica [continuing]. Are at the final scene. But, again, 
what I am--the deficit in intelligent information is what is 
going to do us in.
    Mr. Patterson. If I might----
    Mr. Mica. That is what I want to know for the history of 
the committee. Then I see you have a mass of dogs.
    How many dogs for explosive detection?
    Mr. Patterson. I think it is about 74 today.
    Mr. Mica. Oh. I thought you had thousands.
    Mr. Patterson. No, sir.
    Mr. Mica. Is that contract, too, dogs or just----
    Mr. Patterson. No. That is just----
    Mr. Mica. Oh, you don't?
    Mr. Patterson. No.
    Mr. Mica. Then, I don't see a lot of explosive detection 
devices at some of these checkpoints in the Federal buildings. 
I see the metal detectors, which are useless when it comes--the 
biggest threat right now is explosives. OK?
    Mr. Patterson. Right. Yes, sir.
    Mr. Mica. But I don't see a lot of them.
    Do you have a lot of them out there?
    Mr. Patterson. No. Not explosive detection devices. No, 
sir.
    Mr. Mica. See, I think you are missing the boat there. And 
I think that is where our threat is.
    Then, finally--I guess we let others over a little bit.
    But you have 1,000 LEOs. Do they participate in live fire 
testing----
    Mr. Patterson. Yes, sir.
    Mr. Mica [continuing]. Training?
    Mr. Patterson. Yes, sir.
    Mr. Mica. OK. Do you use simulation?
    Mr. Patterson. We don't use simulation.
    Mr. Mica. OK. I want a report back. I want to know why you 
are not using simulation. It is more cost-effective. You can--
you can train them to the highest levels possible.
    We use it for our military. None of your guys are in 
combat. I haven't seen a lot of firing of weapons on the scene. 
Our military are on the scene in combat, and a good portion of 
their training now comes from simulation.
    Mr. Patterson. Just----
    Mr. Mica. You are behind the times. I want a report back to 
the committee and to me on your proposal to use simulation for 
training those LEOs. And stop using all the expensive, costly 
live fire ammunition.
    Mr. Patterson. May I ask you to clarify, sir?
    Mr. Mica. Go ahead.
    Mr. Patterson. Are we talking about the simunitions? I just 
want to make sure.
    Mr. Mica. Well, using simulations----
    Mr. Patterson. OK.
    Mr. Mica [continuing] Training, weapons training, situation 
training----
    Mr. Patterson. We----
    Mr. Mica [continuing]. The whole thing.
    Mr. Patterson. We do have--we do have weapons training 
where we do simulating training, but we don't use simunitions.
    What I am talking about is where the officer will have 
devices that are strapped to him and, when another officer 
fires a weapon, it will tell whether there was a hit or not.
    Mr. Mica. OK. Well, I want to----
    Mr. Patterson. We don't use that, but we do simulated 
training.
    Mr. Mica. I want to see exactly what you have.
    Mr. Patterson. OK.
    Mr. Mica. Give us a full report and then I want to see what 
your new proposal is. And we can introduce you to people in 
simulation training----
    Mr. Patterson. OK, sir.
    Mr. Mica [continuing]. Which is used for our military and 
manpower readiness. Very, very cost-effective and it will save 
you a lot of those expensive bullets.
    Yield back the balance of my time.
    Mr. Barletta. Thank you.
    The Chair now recognizes Mr. Mullin.
    Mr. Mullin. Thank you, Mr. Chairman.
    Mr. Patterson, we have obviously had a lot of discussion 
here on human resource and the management by the FPS.
    But you guys are also responsible for managing relating 
equipment, such as security cameras. Is that correct?
    Mr. Patterson. Yes, sir.
    Mr. Mullin. Well, the way I understand it is there are 
indications that some cameras may not be working and there is 
also no mechanism to track and maintain these cameras. Is that 
correct, too?
    Mr. Patterson. No, sir. We do track and maintain cameras. 
We are developing a more robust system to do that more 
effectively.
    Every time that we go out and conduct a facility security 
assessment, we are tracking that. When our inspectors go out 
and visit their facilities, they are also looking at and 
inspecting cameras in the field.
    Mr. Mullin. What type of expense has FPS acquired or 
incurred by these cameras, the installation, the purchasing and 
install of them?
    Mr. Patterson. Those are all paid for by the FSE, the 
building, the folks who occupy the facility.
    Mr. Mullin. So what percentage of the cameras do you guys 
go out and check? And I say this because I have several 
companies.
    On my phone right now, I have an app where I can hit and I 
can check in all my companies because of the security cameras 
that we have around there. It is a very--it is an unbelievable 
asset when utilized correctly----
    Mr. Patterson. Yes, sir.
    Mr. Mullin [continuing]. When utilized----
    Mr. Patterson. Right.
    Mr. Mullin [continuing]. Correctly, but it is also a huge 
personal expense that our companies had to take on.
    Mr. Patterson. Right.
    Mr. Mullin. But the cameras are worthless if they are not 
being tracked, if they are not being watched. And a percentage 
of those isn't 10 percent. It is not 5 percent. But it is--it 
is 100 percent of them. They are all installed for a purpose.
    So what percentage does FPS actually look at?
    Mr. Patterson. Now, when you say FPS----
    Mr. Mullin. When you are tracking on, when you are looking 
at them, when you are maintaining then, when you are making 
sure they are even working----
    Mr. Patterson. Yes, sir.
    Mr. Mullin [continuing]. What percentage of that? Are you 
saying just when you go visit the----
    Mr. Patterson. No.
    Mr. Mullin [continuing]. Facility?
    Mr. Patterson. No, sir. We are about the business of 
ensuring that all of the cameras work. And when they don't 
work, then we move forward to work with the facility security 
committee to either fix the cameras or replace the cameras.
    Mr. Mullin. I guess what I am trying to get to is: Are you 
actively seeking these?
    Mr. Patterson. Yes.
    Mr. Mullin. OK.
    Mr. Patterson. We want to ensure that the cameras are 
working. You are exactly right. A camera is ineffective or our 
security becomes less effective if the cameras aren't 
operating.
    Mr. Mullin. Mr. Goldstein, what about with GAO and the 
cameras that you guys have?
    Mr. Goldstein. We have taken a look at some of the cameras 
over time that FPS has. We have done work in which we have 
shown that a number of facilities have not adequate cameras and 
FPS wasn't unable to determine when crimes had been committed, 
who committed those crimes, perhaps, when things were taken out 
of the building.
    We also know of a number of instances where other tenants, 
particularly the courts, have become quite frustrated with the 
Federal Protective Service because they did not feel that 
maintenance of the cameras was sufficient, and they took over 
those responsibilities and paid for them themselves.
    I continue to hear anecdotally we have not done a 
comprehensive report; so, it is not generalized. But we do hear 
anecdotes all the time about frustrations with keeping these 
cameras working and modernized.
    Mr. Mullin. Mr. Goldstein, you are saying the same thing 
that this committee has heard, too.
    And, Mr. Patterson, that was what I was trying to get at, 
the frustration behind it.
    We have technology that is out there, and it is not being 
utilized. And the tenants, these buildings, the ones that are 
depending on these cameras--that is supposed to have a layer of 
security. Instead, it is becoming a layer of frustration.
    And there is a better way to do things, and I would be 
curious if you guys could or if you would take a look at it.
    Mr. Patterson. Yes, sir.
    Mr. Mullin. See if there is a better practice, just the way 
that we are doing it, just spot-checking it, just going through 
it.
    Obviously, you just heard from Mr. Goldstein the committee 
has heard the same things, that there is a layer of frustration 
that is taking place.
    Mr. Patterson. Yes, sir. And I recognize there is a layer 
of frustration. I spend quite a bit of time on the road talking 
to the clerks of the courts, to IRS, Social Security----
    Mr. Mullin. Mr. Patterson, the difference between talking 
and doing is two different things. There is a lot of people up 
there that give lip service. What we are asking for is service.
    Mr. Patterson. Yes, sir. And I am not giving lip service. I 
am giving service. I am ensuring that, when folks are 
dissatisfied or not happy with our service, that we are 
rendering service that we are supposed to. So, sir, 
respectfully, I am not giving lip service.
    Mr. Mullin. Well, I would hope that maybe next time we 
visit we can see a plan that is laid out----
    Mr. Patterson. Yes, sir.
    Mr. Mullin [continuing]. Because I would like to think that 
we could improve on this.
    Mr. Patterson. Yes, sir.
    Mr. Mullin. Thank you, sir.
    Mr. Chairman, I appreciate you giving me the extra time.
    Mr. Barletta. Thank you.
    We will have one final round of questions.
    Mr. Patterson, law enforcement authority for the FPS lies 
in the Public Buildings Act. It is our understanding that this 
authority has been re-delegated to other entities, such as the 
Chief Security Office, FEMA, ICE, the Federal Law Enforcement 
Training Center.
    Why is this law enforcement authority being delegated 
across DHS? And isn't this FPS's responsibility? Didn't this 
delegation of authority create the unity of command problem at 
the headquarters that DHS cited as the reason from removing FPS 
as the security lead at the headquarters?
    Mr. Patterson. Sir, I don't have an answer for you. I don't 
know why the different elements have been granted that 
authority. I don't have an answer.
    Mr. Barletta. Well, this will conclude our first panel.
    I would like to thank both for your testimony today and for 
your time and cooperation. Thank you.
    We will now call our second panel. On our second panel, we 
have Mr. David L. Wright, president, AFGE Local 918, and Mr. 
Stephen Amitay, executive director and general counsel, 
National Association of Security Companies.
    I ask unanimous consent that our witnesses' full statements 
be included in the record. Without objection, so ordered.
    Since your written testimony has been made a part of the 
record, the subcommittee would request that you limit your oral 
testimony to 5 minutes.
    Mr. Wright, you may proceed.

 TESTIMONY OF DAVID L. WRIGHT, PRESIDENT, AFGE LOCAL 918; AND 
 STEPHEN AMITAY, ESQ., EXECUTIVE DIRECTOR AND GENERAL COUNSEL, 
           NATIONAL ASSOCIATION OF SECURITY COMPANIES

    Mr. Wright. Thank you, Chairman.
    Chairman Barletta, Ranking Member Carson, members of the 
committee, my name is David Wright. I am president of AFGE 
Local 918, which represents FPS employees nationwide. I am also 
an inspector with the Federal Protective Service since 1986.
    Federal employees and facilities are very vulnerable to 
attack from both criminal and terrorist threats. Are they as 
secure as they should be? They are not. Is that security as 
effective as this congressional office building? Definitely 
not.
    Solutions include accountability for FPS leadership, 
pushing staff to the field, effective on-site security and 
effective tools for risk assessment and recruiting.
    Regarding the culture of accountability, in 2010, 2013, GAO 
reported problems with guard screener training and 
certification requirements. There is no excuse for these 
failures.
    Three years later they should have been fixed and the 
responsible managers should have been held accountable. 
However, often lost in the broad brush of GAO reports, these 
are not organizationwide failures.
    In several of 11 FPS regions, almost everything seems to go 
well. Guards receive FPS training. Untrained guards are not 
used for screening. Firearms qualification is monitored. And 
guards are trained on active shooter scenarios. In these 
regions, tenants trust FPS to deliver. For these, FPS field 
employees simply refuse to fail.
    FPS appeared to treat these failures as a structural issue 
to be resolved by--to be solved by reorganization. This 
resulted in an unclear direction funneled through an extra 
layer of management who either ignored or missed problems.
    DHS, aided by your oversight, should remove the extra layer 
and fire or demote managers who fail to accomplish critical 
tasks or uphold the FPS code of conduct. Building security is 
not a T-ball game to build self-esteem. It is serious business 
with serious consequences.
    Regarding the shift of staff to where service is delivered, 
the Federal law enforcement officers who deliver incident 
response, arrest offenders and deliver assessments and guard 
monitoring are short-staffed and struggle to get it all done.
    Allocation of 68 percent of total staff to field law 
enforcement is not indicative of a lean, agile and high-
performing organization.
    An organization with less than 1,400 employees that has 8 
senior executives, 39 GS-15s and 138 GS-14s, with over half of 
these assigned to headquarters, is top heavy.
    The remedy is Congress should establish a ceiling for SES, 
limit GS-15s to 125 percent of the number assigned to the 
regions at headquarters, and mandate reduction of headquarters 
to 12.5 percent of total FTE, also, allow FPS to use building-
specific charges, to add FTE when officers are dedicated to the 
facilities paying the charges, and restore the minimum field 
law enforcement staff to its 2007 equivalent of 1,150.
    Regarding effective on-site security services, unlike the 
Senate and House office buildings where the on-site force is 
comprised of Federal police officers, GSA facilities rely on 
contract guards for this function. FPS guard contracts do not 
use economies of scale to reduce hourly cost.
    The size of the FPS procurement staff has doubled, but now 
it takes 400 days to implement a new contract. Our remedy? Take 
action to direct the use of Federal police officers for large, 
multitenant facilities that are open to the public and provide 
direction to efficiently consolidate guard contracts within the 
same State or contiguous areas, also, mandate a reasonable 
procurement staffing model and mandate cost-effective 
procurement options, such as a potential use of GSA.
    Regarding effective tools for recruiting and risk 
assessment, FPS currently uses an interim risk tool called 
MIST. The GAO recently found it was not compliant with the 
governmentwide standards and that there are available tools 
that do. Remedy is to mandate that FPS--mandate FPS 
expeditiously acquire and field a compliant risk tool.
    Regarding retention and recruiting, when applicants for 
Federal law enforcement look at FPS, one of the questions is: 
Are we covered by law enforcement retirement? When told we are 
not covered by law enforcement retirement, the best and the 
brightest start looking elsewhere.
    At the national law enforcement memorial, where the names 
of U.S. law enforcement officers who have died in the line of 
duty are inscribed, we recognize the supreme sacrifice of those 
heros.
    Among the names inscribed at the memorial are six officers 
of the Federal Protective Service who died in the line of duty.
    Should any other FPS officer die in the line of duty, their 
name will be added to that list. If we live and die as law 
enforcement officers, Congress should recognize that service by 
allowing us to retire as one.
    Thank you for the opportunity to testify at this important 
hearing. Dedicated officers in FPS and the employees in Federal 
facilities await your expeditious action on these serious 
matters.
    Mr. Barletta. Thank you for your testimony, Mr. Wright.
    Mr. Amitay, you may proceed.
    Mr. Amitay. Thank you, Chairman Barletta.
    Chairman Barletta, Ranking Member Carson, my name is 
Stephen Amitay, and I am the executive director and general 
counsel for NASCO, the National Association of Security 
Companies.
    NASCO is the Nation's largest contract security trade 
association whose member companies employ more than 300,000 
security officers across the Nation, servicing commercial and 
governmental clients.
    Since its founding in 1972, NASCO has worked with 
legislators and officials at every level of Government to put 
in place higher standards and requirements for security 
companies and private security officers.
    NASCO member companies provide security officers to 
numerous Federal agencies, including the majority of the 
protective service officers, or PSOs, under FPS.
    Not counting the military services, there are approximately 
35,000 contract security officers across the Federal 
Government, and the use of contract security is an effective 
and cost-efficient countermeasure for safeguarding Federal 
facilities, employees and visitors.
    Over the past several years, the GAO has identified 
challenges that FPS faces in its missions to keep Federal 
facilities secure, including issues related to the PSO program. 
And NASCO has been working with FPS, Congress, GAO and GSA to 
address these issues.
    While the pace of progress on some issues may not be as 
fast as GAO would like, progress is being made. And since the 
appointment of Director Patterson in 2010, the degree of 
dialogue and breadth of cooperation between FPS and its 
security contractors has been unparalleled.
    There is no doubt that Director Patterson and others at FPS 
are committed to improving the PSO program and FPS and NASCO 
are currently working together on a variety of initiatives that 
will improve the PSO program.
    To address deficiencies in FPS's capability to provide the 
crucial x-ray and magnetometer training to PSOs, FPS has just 
launched a pilot program conceived with NASCO that is training 
and certifying security contractor instructors to provide the 
training. Also, the x-ray and magnetometer training has 
recently been revamped and expanded by FPS.
    In the area of active shooter training, NASCO has met 
several times with FPS to discuss FPS's development of new 
active shooter training for PSOs, an effort which is definitely 
on the fast track at FPS, and FPS is wisely looking at how 
other agencies provide active shooter training to contract 
security officers that they utilize.
    NASCO is also working with FPS on revising and 
standardizing PSO training lesson plans, and FPS envisions, as 
recommended by the ISC and GAO, having all PSO training 
instructors certified.
    In other PSO program areas, FPS just came out with a much 
needed revision of the PSO manual. Called the SMART Book, it 
governs and instructs PSOs on how to act, and not following the 
SMART Book is considered a contract violation.
    Of note, there is a new chapter in the SMART Book on active 
shooter response, there is better language on the issue of PSO 
authority, and, most importantly, by design, the format of the 
SMART Book will allow for making revisions as needed.
    FPS is also undertaking a comprehensive review of PSO post 
orders and seeking ways to improve its management of PSO 
training and certification data.
    For this latter effort, NASCO strongly recommends that FPS 
explore commercially available technologies, and work closely 
with its security contractors on this effort who are the ones 
who have to provide and upload the data.
    One PSO subject area that continues to present challenges 
is a PSO's authority to act and liability for acting in 
preventing or responding to an extreme situation, such as an 
active shooter.
    On this issue, Congress should consider providing DHS with 
statutory authority to authorize PSOs to make arrests on 
Federal property. Such arrest authority is already provided to 
contract security officers at other Federal agencies.
    And there are also other elements of the Federal facility 
risk assessment and security process not related to PSOs that 
need to be addressed. Take, for example, as has already been 
discussed today, the decision to implement specific security 
countermeasures for a facility.
    In GSA-owned or GSA-leased buildings, FPS is responsible 
for conducting the facility's security assessment and 
recommending countermeasures, but the decision to implement 
those recommendations is solely up to the facility's security 
committee, which is made up of representatives from the 
facility's tenant agencies.
    However, as GAO has found, quote, tenant agency 
representatives to the FSC generally do not have any security 
knowledge or experience, but are expected to make security 
decisions for their respective agencies. And with tightened 
budgets putting pressure on tenant agencies to accept more 
risk, it calls into question whether FSCs are actually making 
informed risk-based decisions.
    Countermeasures deemed necessary for security should not be 
rejected because of either a lack of understanding or an 
unwillingness to fund them. Last Congress, NASCO supported 
legislation that required training for FSC members and allowed 
DHS to challenge its decision not to implement countermeasures.
    In closing, NASCO looks forward to continuing to work with 
FPS, Congress, GAO and GSA to find ways to support FPS's 
mission to render Federal properties safe and secure for 
Federal employees, officials and visitors in a professional and 
cost-effective manner.
    Thank you.
    Mr. Barletta. Thank you for your testimony, Mr. Amitay.
    I will now begin the first round of questions, limited to 5 
minutes for each Member. If there are any additional questions 
following the first round, we will have additional rounds as 
needed.
    Mr. Wright, you highlight in your testimony challenges with 
the staffing and the number of law enforcement officers. You 
point out 67 law enforcement officers are assigned to 
headquarters.
    Do you know if they are assigned to FPS headquarters or 
other parts of DHS?
    Mr. Wright. Those 67 are assigned to FPS headquarters and--
the point being that those individuals do not respond to law 
enforcement calls for service on a daily basis. In my mind, 
they don't meet the definition of field law enforcement staff.
    Mr. Barletta. Mr. Wright, you mentioned the delegation of 
law enforcement authority of buildings to entities outside of 
FPS and the duplication of security services at other agencies.
    Can you explain. And how does this duplication impact the 
security of Federal facilities and the chain of command?
    Mr. Wright. Well, of course, most recently was the issue 
with the NAC, which----
    Mr. Barletta. Can you pull the mic a little closer to you 
or some--yeah.
    Mr. Wright. Yes.
    Mr. Barletta. Thank you.
    Mr. Wright. Most recently, of course, the issue with the 
NAC in which Office of Security staff took control of NAC 
security.
    Recently, in past years, Immigration and Customs 
Enforcement has stood up their own security unit. They use H.R. 
1315 as their authority, and they assess their ICE buildings 
across the U.S.
    It is duplicative in nature. FPS conducts those surveys and 
so does ICE. And that is probably the most recent example 
besides NAC.
    Mr. Barletta. Mr. Amitay, you highlight in your testimony 
differences between how FPS oversees and manages its contract 
guards as compared to other agencies. For example, you 
highlight DOE and the U.S. Marshals Service.
    What do those agencies do differently in terms of the 
authorities and training they provide to their guards?
    Mr. Amitay. The major difference is that those agencies, 
with their contract security officers, the contract security 
officers are authorized to make arrests on the Federal 
properties where they are employed.
    In DOE's case, this comes from statutory authority granted 
to DOE through an act of Congress. This is something that we 
would like to also be considered by Congress for the PSOs at 
FPS.
    However, there would be also additional training that would 
be required if that additional authority is granted.
    Mr. Barletta. Mr. Wright, have you looked at how private 
contractors have been used to provide security at DOE, the U.S. 
Marshals Service and, even at DOD, to identify how FPS can 
better utilize and train its guards to improve security at 
Federal buildings?
    Mr. Wright. Of the three agencies that you cite--DOD, DOE 
and U.S. Marshals Service--I have most--I have worked most 
closely with the U.S. Marshals Service; so, I can cite 
experience there.
    The contract security officers in these Federal courthouses 
are all hired as former law enforcement. They have all been 
through some sort of law enforcement academy.
    And I am unsure--they are deputized by the U.S. Marshals 
Service, who have that authority. They are an effective force 
in the U.S. courthouses. And I think it is that ability to 
deputize by the marshals that is most important.
    Mr. Barletta. Mr. Amitay, you mentioned that most of the 
other Federal agencies, they use contract security officers--
contract with security companies to provide training.
    Can you provide us with some examples of what other 
agencies are doing in that regard and how they could be 
applicable to FPS.
    Mr. Amitay. Sure. For instance, at DOE, they require that 
the contract security companies that they contract with to 
provide all the training for the contract security officers 
there.
    This training is very comprehensive. It involves weapons 
training. It involves use of intermediate force, basic 
training, et cetera.
    And all of that training, as is the case at many of the 
agencies, is provided to contract security officers by company 
instructors who are certified. The companies are responsible 
for 100 percent of the training.
    A big issue at FPS is that, for some reason, FPS has held 
back from its contractors the authority to provide the x-ray 
magnetometer training and, because of FPS personnel and 
training resource issues, as Mr. Goldstein pointed out, 
sometimes that x-ray magnetometer training is not provided to 
the PSOs.
    Mr. Barletta. Thank you.
    The Chair now recognizes Ranking Member Carson for his 
questions.
    Mr. Carson. Thank you, Mr. Chairman.
    Mr. Wright, what is the FPS's relationship with the 
facilities security committee from the union's perspective? And 
do you believe that the committees generally rely on FPS's 
expertise when evaluating recommendations for countermeasures?
    Mr. Wright. As an inspector, I have worked with facility--
differing facility security committees across the Government.
    Firstly, it is a matter of how serious the agencies take 
that facility's security committee. If it is a smaller property 
with fewer agencies, even less budget, they don't tend to take 
those facilities' security committee recommendations seriously.
    We are--FPS is the experts at the table, for the most part. 
As you go up in the size of buildings, you have more tenants, 
more agency heads. These committees tend to--like any other, in 
some cases, undesirable task, it becomes a collateral duty.
    My experience is that, when it becomes a collateral duty or 
especially when agency funding is not available for security, 
then it is--the recommendations don't make it through.
    No matter what an inspector says, these issues--these 
countermeasures are not going to be funded. And that is the--
the primary problem with facility security committees is no 
agency is funded for security countermeasures.
    Mr. Carson. Mr. Amitay, how often are members of your 
association fined or penalized for not having proper 
documentation for their contract guards? And, also, to your 
knowledge, sir, has any contract guard company working with FPS 
been debarred for not fulfilling their contractual duties?
    Mr. Amitay. In terms of the information on the rate or the 
amount of times that contractors have been fined for not having 
officers who have their training and certifications, I don't 
have that information.
    But NASCO fully believes that, in those situations, proper 
action should be taken. When such a situation occurs, I think 
that contractors have to pay back FPS for the hours worked by 
such officers. Then there is also monetary fines. It should 
affect their performance rating for potential future contracts.
    We have no problems with FPS being able to enforce the 
provisions of the contract against contractors, but I think on 
the training and certification accuracy, it is also an issue of 
who has the right data.
    FPS's data management system is very problematic.
    But, definitely, if there are PSOs being put on post who 
don't have the trainings and certifications in violation of the 
contract, that company should be held in violation of the 
contract and punished.
    Mr. Carson. Thank you, sir.
    Lastly, Mr. Wright, how does the lack of recognition of FPS 
officers as law enforcement officers for purposes of retirement 
after retention, recruitment and morale of officers--has it--
clearly, it has an impact, but is it substantial enough that we 
need to look more deeply into this?
    Mr. Wright. It affects in the sense that sometimes you have 
law enforcement officers past the age of the minimum--or the 
mandatory retirement of 57 years old.
    You tend to have officers that stick around perhaps a lot 
longer than they should for their own safety and for the 
public's safety.
    Mr. Carson. Sure.
    Thank you, Mr. Chairman. I yield back my time, sir.
    Mr. Barletta. Mr. Wright, what is the current protocol to 
respond to an active shooter in a Federal building where an FPS 
officer may not be on the scene? And can you walk us through 
the role of the contract guard in that scenario.
    Mr. Wright. Contract guards are limited by their--their 
post orders, which are basically subscribed by their private 
contract.
    The contracts spell out what the guards--what services will 
be provided. That is translated to what the facility needs and 
goes into the post orders.
    Generally, guards do not leave their post. Guards are 
responsible for maintaining that post, locking doors, letting--
you know, letting the tenants out and letting the good guys in 
to come--to pursue the active shooter.
    But, generally, these guards will not leave the post, and 
that is per post orders and, basically, per contract, which is 
also tied to State and locality issues with their authority.
    Mr. Barletta. So in a scenario where an active shooter by--
a guard may be on another floor and begins shooting, the guard 
doesn't leave his post? There is no authority that that guard 
would have to do other than to wait for help?
    Mr. Wright. Correct. Technically, the guard should not 
leave that post. In some Federal buildings, you do have a 
rover, which is not tied to a post, but those are few and far 
between.
    What is going to happen when it happens? We have a lot of 
good security officers in the field. I think, just like any--
like any law enforcement officers, individuals are going to do 
what they have to do, and then you face the consequences of 
what comes after.
    Mr. Barletta. Mr. Amitay, you highlight in your testimony 
the steps FPS has taken to improve post orders for the guards 
at Federal facilities.
    Are those orders clear on what is expected and what the 
authorities are of the contract officers?
    Mr. Amitay. They are getting better at providing that 
guidance. One thing that we have emphasized at FPS is that post 
orders need to be facility-specific and they need to be 
tailored to the building.
    In FPS's current review of post orders, they are trying to 
provide better instructions and guidance to the PSOs, and there 
is better guidance in the new PSO manual.
    And I would just like to just respond--or just to comment 
on that last question.
    I would note that, in 2010, there were three active shooter 
incidents involving Federal facilities. One was at the 
Holocaust Museum, one was at the Pentagon, and one was at a 
Federal courthouse.
    In all three incidents, an active shooter came in and had a 
gun and started shooting at the personnel--security personnel 
on duty. In all three incidents, the active shooter was 
neutralized.
    In two of those incidents, security personnel were contract 
security officers. In one of the incidents, it was a law 
enforcement officer.
    So the PSOs--they do have the guidance and instructions to 
engage an active shooter and protect self and third parties.
    And that goes to the issue of the State law and the State 
powers. And under most State licensing laws, an armed security 
officer definitely has the authority to use his weapon to 
neutralize an active shooter.
    Mr. Barletta. Thank you.
    The Chair recognizes Ranking Member Carson.
    Mr. Carson. Thank you, Chairman.
    My last question: Mr. Amitay, in your testimony, you 
indicate that members of your association use off-the-shelf 
technology to effectively manage your contract guards' training 
and certifications.
    Have you shared this technology with FPS? And, if so, when? 
And have they indicated that they would use this technology? If 
not, why not?
    Mr. Amitay. That is a great question.
    I was actually talking with the PSO program manager the 
other day about this issue after I read in previous FPS 
testimony about how FPS is working with the science and 
technology division to prototype a guard tracking system, when 
those systems are commercially available.
    Now, I think some of the difficulty for FPS in using 
commercially available systems is in the layers of security 
that FPS would need to put on its security officer 
certification and tracking data management system, but the 
bottom line is that, whatever system they use, it is going to 
have to interface with the systems that are being used by the 
contract security companies.
    And there are--as Mr. Goldstein said, there are 
commercially available technologies that FPS might be able to 
use, but without a doubt, that is a big problem.
    And I think it can be solved though because there is no 
reason why there can't be a database management system where 
both the security contractors and FPS can access, upload data.
    The idea that security contractors are sending in paper 
forms and then FPS is manually uploading that just seems an 
anachronism.
    Thank you.
    Mr. Carson. Thank you, sir.
    Mr. Chairman, I yield back.
    Mr. Barletta. The Chair now recognizes the gentleman from 
Pennsylvania, Mr. Perry.
    Mr. Perry. Thank you, Mr. Chairman.
    The question will be directed to Mr. Amitay.
    Am I pronouncing that correctly?
    Mr. Amitay. Yes.
    Mr. Perry. Thank you.
    So it is my understanding that the Federal Protective 
Service has four alarm-monitoring facilities, or MegaCenters, 
that monitor Federal Government security alarm accounts, one in 
Maryland, one in Michigan, Pennsylvania and Colorado. The 
centers also have the law enforcement function of dispatching 
Federal Protective Service officers on emergency call.
    Has your agency ever done an analysis on what the overall 
operational cost is to maintain the four facilities, including 
staffing, and whether it would actually be more cost-effective 
for the taxpayer to move the alarm-monitoring function to a 
commercial monitoring center?
    Mr. Amitay. We haven't looked into that. But alarm-
monitoring is not an inherently governmental function and, so, 
I think that is something that someone could look at.
    When the PSOs see something or there is a problem, they 
should always contact the MegaCenter unless there is an FPS law 
enforcement officer on-line.
    But in terms of the management and operation of those 
MegaCenters, whether it can be privatized, we have not looked 
at that.
    Mr. Perry. Would that be something that you would seek to 
do from a cost-saving standpoint? Is there a concern that there 
would be a breach in security or, you know, a diminution of 
security by doing such a thing?
    Mr. Amitay. I think, whereas the FPS MegaCenters act more 
in a management function for FPS over the contract security 
officer force, I think that FPS would want to retain control of 
that management function, but that is just something that we 
have never looked at.
    Mr. Perry. OK.
    Thank you, Mr. Chairman. I yield back.
    Mr. Barletta. Thank you.
    And thank you for your testimony. Your comments have been 
helpful to today's discussion.
    If there are no further questions, I would ask unanimous 
consent that the record of today's hearing remain open until 
such time as our witnesses have provided answers to any 
questions that may be submitted to them in writing and 
unanimous consent that the record remain open for 15 days for 
any additional comments and information submitted by Members or 
witnesses to be included in the record of today's hearing. 
Without objection, so ordered.
    I would like to thank our witnesses again for their 
testimony today.
    You know, I am very concerned about what we have learned 
today. The FPS is directly responsible for protecting 1.4 
million workers and visitors at Federal facilities.
    We know by experience that Federal facilities are targets. 
GAO has documented numerous security shortfalls over the years, 
and their recommendations remain largely incomplete.
    Yet, rather than focus on the Department's efforts on 
addressing these problems and enhancing FPS, we learned the 
Department has removed FPS from its lead security role at DHS's 
headquarters.
    We learned DHS has reassigned FPS's resources and staff for 
other purposes outside of protecting buildings, stretching 
already thin resources even thinner.
    And we learned DHS has taken law enforcement authorities 
for protecting Federal buildings and delegated some of them to 
the Department's security officer, to FEMA, to Immigration and 
Customs Enforcement and the Federal Law Enforcement Training 
Center.
    Unfortunately, this looks a little like what we saw happen 
to FEMA. When FEMA was moved to DHS, DHS dispersed its 
authorities and responsibilities throughout the Department, 
creating real confusion as to who was in charge for responding 
to a disaster. And we saw the results of that in the poor 
response to Hurricane Katrina.
    I hope that this is not what is happening here. But when I 
look at this May 1 memo, it says there is no clear unity of 
command at NAC. This is very disconcerting.
    Frankly, I wonder if we had the correct witnesses here from 
DHS because it seems decisions are being made about FPS from 
somewhere else in the Department and it is not clear by whom. I 
expect we will have a number of followup questions as we assess 
what we have heard today.
    If no other Members have anything to add, this subcommittee 
stands adjourned.
    [Whereupon, at 12:10 p.m., the subcommittee was adjourned.]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
</pre></body></html>
